         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

Certification and Accreditation of
Unclassified Information Systems




DOE/IG-0752                            January 2007
                            Department of Energy
                                Washington,        DC 20585
                                January 3, 2007


MEMORANDUM FOR THF, SECRETARY
                                 / k c , A ~ 1n7
FROM:                    Greg ry H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Certification and
                         Accreditation of Unclassified Information Systems"

BACKGROUND

Inforn~ationsystems are essential to accomplishing the Department of Energy's
environmental, energy, and national security-related missions. Actions to protect these
systems from increasingly sophisticated attacks have become critically important to the
Department and each of its subordinate organizations. The certification and accreditation
(C&A) process, required by Federal law and Departmental guidance, is designed to
ensure that the agency's inforniation systems are secure prior to beginning operation and
that they remain so throughout their lifecycle. The process involves determining whether
system controls are in place and operating as intended, identifying weaknesses,
mitigating them to the maximum extent possible, and officially recognizing and accepting
residual risks. C&A's must be performed on all systems, and they remain in force for a
three-year period unless significant changes are made to the system or operating
environment.

Previous Office of Inspector General reports have disclosed shortcomings with the
Department's C&A process. These reports identified several sites that had incomplete
C&A processes as well as sites that failed to comply with National Institute of Standards
and Technology (NIST) requirements. Because of these problems, we conducted this
audit to determine whether the Department's unclassified information systems had been
appropriately certified and accredited for operation. This audit was performed in
conjunction with, and expands on, issues that were addressed in our report on the
Deportment's Unclasszfierl Cyber Seczsrity Prc~granl 2006 (DOEIIG-073 8, September
                                                                 -



2006).

RESULTS OF AUDIT

Despite recent efforts by the Department to improve its process by strengthening
guidance, many of its systems were not properly certified and accredited for operation.
For example:

       Nine of 14 sites reviewed had not properly assessed the potential risk to their
       systems and had not adequately tested or evaluated system security controls;
       In many instances, senior agency officials accredited systems even though they
       had not been provided with adequate or complete risk information;



                               @    Printed with soy ~ n kon recycled paper
       Six of the 14 sites examined had not identified the specific residual risk associated
       with system operation; and,

       At two sites, the role of the Designated Accrediting Authority, the individual
       responsible for accepting risks associated with system operation and granting
       authority to operate, had been improperly delegated to a contractor official.

Several issues contributed to widespread problems with the Department's C&A process.
In particular:

       Implementing instructions prepared by organizations did not always comply with
       mandatory NIST C&A guidance; and,

       The Office of the Chief Information Officer and other Departmental organizations
       did not adequately review completed efforts for quality or compliance with
       requirements; and,

       Field activities were required to complete internal C&A's within an extremely
       compressed timeframe.

Without proper C&A, the Department lacks assurance that its information systems and
the data they contain are secure.

During our review, we did note that the Department continues to revitalize its Cyber
Security Program. The Office of the Chief Information Officer recently issued updated
guidance, and the National Nuclear Security Administration (NNSA) is implementing a
program to standardize its certification process. In addition, the Office of Science, in
conjunction with the Office of Health, Safety and Security, has been conducting site
visits to identify and resolve cyber security problems. This process, if implemented
across the complex, should help the Department improve its C&A process. While these
actions are promising, we made several recommendations designed to strengthen the
C&A process and improve the cyber security posture of the Department.

Due to security considerations, specific information regarding the sites and systems with
certification and accreditation problems has been omitted from this report.

MANAGEMENT REACTION

The Department concurred with the report's conclusions and recommendations. In
particular, management indicated that one of the priorities in Fiscal Year 2007 is to
continue to improve the Department's C&A process, bringing it to an acceptable level.
Comments submitted by the Department's Chief Information Officer on behalf of his and
other offices are included in their entirety in Appendix 3.

In separate informal comments, NNSA noted that it had developed cyber security policies
that it believed generally satisfied NIST requirements and that its sites were required to
follow those policies. However, the attached report notes that the NNSA Policy Letters
(known as NAPS) do not include certain critical NIST requirements related to the C&A
process.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
    Chief Information Officer
CERTIFICATION AND ACCREDITA'TION OF UNCLASSIFIED
INFORMATION SYSTEMS

TABLE OF
CONTENTS


               The Certification and Accreditation Process

               Details of Finding ................................................................... 1

               Recommendations and Comments ..........................................7


               Appendices

               1. Ob-jective,Scope, and Methodology ................................10

               2. Related Reports ...............................................................12

               3. Management Comments ..................................................14
THE CERTIFICATION AND ACCREDITATION PROCESS

Ensuring Information   Our review of 14 sites disclosed that many of the Department
System Security        of Energy's (Department) information systems were not
                       appropriately certified and accredited for operation. Despite
                       specific guidance from the Department, the National Institute
                       of Standards and Technology (NIST), and the Office of
                       Management and Budget (OMB), responsible officials
                       omitted or did not properly complete many of the specific,
                       detailed activities required for certification and accreditation
                       (C&A). In a number of instances, categorizations that drive
                       risk level had not been properly assigned, and risk-specific
                       controls had not been adequately tested. Senior agency
                       officials that accredited systems did so on many occasions
                       without adequate or complete certification documentation
                       and were unable to identify the specific residual risk
                       associated with system operation. In two instances, Federal
                       officials improper1 y delegated accrediting authorization to a
                       contractor.

                                Security Categorization and Control Testing

                       Although specifically required by NIST guidance, security
                       categorizations were not always assigned to systems during
                       the C&A process. These categorizations are used to establish
                       the impact that compromise of the system or loss of
                       information would have and to determine whether systems
                       should be assigned low, moderate, or high risk levels.
                       Security level determinations help identify applicable
                       controls and how they should be incorporated into the system
                       security plan. Risk levels should be established at the highest
                       component level of a system.

                       Despite the aforementioned requirements, systems at 5 of 14
                       sites included in our audit lacked both system and
                       information-level categorizations. Four other sites had
                       assigned system and information security categorizations to
                       an entire enclave or group of systems without regard to the
                       varying securlty levels of systems in the enclave. One of
                       these enclaves contained systems processing data at a high
                       risk level, while the secunty categorization selected resulted
                       in them being protected only at the low risk level.

                       In addition, required evaluations and testing of security
                       controls had not been performed or were inadequate at
                       several sites we visited. NIST guidance requires that
                       organizations evaluate controls, design and execute plans to
                       test identified controls, and document the results of the
                       testing and any corrective actions that are necessary.


Page 1                                                          Details of Finding
         Contrary to these requirements, four sites had not prepared
         security control test plans. Additionally, nine sites did not
         adequately examine controls in accordance with NIST
         requirements. For example, the plans lacked several key
         components, such as testing of all controls and a description
         of the methods and procedures to be used to conduct the
         assessment. Had the site officials properly evaluated the
         system controls, they may have determined the extent to
         which the controls were implemented correctly, operating as
         intended, and producing the desired outcome.

                   Documentation Supporting Certifications

         In many cases, accreditation decisions were made without
         adequate information. Specifically, several critical steps had
         not been conducted or were not properly documented. In
         particular:

                System-specific risk assessments, activities required
                by NIST and Department guidance to identify risks
                and potential threat sources, had not been conducted
                at 5 of the 14 sites reviewed. For example, one site
                had not conducted individual risk assessments on 1 1
                of its 12 major applications and general support
                systems. Risk assessments, which analyze the nature
                and level of threats and vulnerabilities, should be
                conducted at the beginning of the certification
                process.
                Accreditation boundary information - data necessary
                to identify all system components - lacked sufficient
                detail to understand the system and determine the
                scope of C&A at 6 of the 14 sites visited. The six
                sites were unable to provide inventories of the
                hardware and software included within defined
                accreditation boundaries. As noted in NIST
                implementing guidance, these inventories are a key
                initial step in determining what system elements are
                exposed to residual risk.

                Information showing connectivity between systems,
                sites, and/or agencies was incomplete at 5 of 14 sites
                reviewed. For example, at one site, no connection
                data was available to explain how connections were
                made to the Department-wide network that the site
                used for data transmission. Such information is
                critical to ensure that the site has identified and


Page 2                                          Details of Finding
                mitigated risks such as those involved with
                connecting to the internet.

                At 4 of 14 sites evaluated, systems lacked required
                Plans of Actions and Milestones (POAMs) to
                document and monitor progress to correct security
                vulnerabilities found during the certification process.

                Contingency plans were not properly tested at 5 of 14
                sites reviewed. Such plans detai I how to keep a
                system's critical functions operating in the event of
                disruptions. The periodic testing of a plan, typically
                annually, allows officials to uncover, and hopefully,
                correct flaws in the plan and in its implementation
                prior to an actual disaster or system disruption.

                System self-assessments had not been conducted at
                six sites. Self-assessments, required annually by the
                Federal Information Security Management Act of
                2002 (FISMA), provide a method for agency officials
                to determine the current status of their information
                security programs and, where necessary, correct
                deficiencies and establish targets for improvement.

                                 Residual Risk

         Six sites reviewed did not specifically identify the residual
         risks that management accepted by permitting systems to
         operate. Residual risk is the threat remaining after security
         measures have been applied to the system. At the time of
         accreditation, senior agency officials must be able to
         determine the risk to the Department that results from the
         operation of the system and accept such risk given the
         organization's need for the system. At many sites, the
         amount of residual risk accepted by the accrediting officials
         was not identified. Further, based on the available
         certification documentation, senior agency officials would
         not have been able to determine the residual risk they were
         accepting prior to accreditation.

                             Accrediting, Authority

         At two National Nuclear Security Administration (NNSA)
         sites, the role of Designated Accrediting Authority (DAA)
         had been improperly delegated to a contractor official. While
         the actual DAA assigned to the two national laboratories in
         question was a Federal employee, the DAA delegated the
         duties and allowed a contractor official to accredit systems.

Page 3                                           Details of Finding
                 While NIST and Departmental requirements allow delegation
                 of duties, they recognize that the authorizing official has
                 inherent U.S. government authority and thus mandates that
                 the accrediting official be a Federal employee. At one site,
                 the contactor official had accredited the financial and human
                 resource systems, each of which contained sensitive privacy
                 and other operational information. By permitting this
                 delegation, Federal officials with cognizance over these sites
                 may not be fully aware of the risks of operating these
                 systems.

Implementation   Our audit identified several issues that, at least in part,
Oversight        contributed to widespread problems with the Department's
                 C&A process. In particular, implementing instructions
                 prepared by organizations did not always comply with
                 mandatory NIST C&A guidance. The Office of the Chief
                 Information Officer (CIO) and program elements also did not
                 adequately review completed efforts for quality or
                 compliance with requirements. These issues, coupled with
                 extremely compressed completion timelines, adversely
                 impacted the quality and usefulness of efforts to identify and
                 address information security weaknesses.

                            Implementation of NIST Requirements

                 Direction from Departmental elements was not a1 ways
                 consistent with Federal certification and accreditation
                 requirements. For example, at the direction of the Office of
                 Science, many of its field sites inappropriately applied NIST
                 requirements for categorizing system risk levels and applying
                 corresponding security controls, resulting in systems being
                 protected at a lower level than needed. Similarly, NNSA site
                 officials continued to indicate that they were required to
                 comply with NNSA Policy Letters (known as NAPs), as
                 opposed to meeting NIST requirements. However, our
                 review disclosed that none of the NNSA sites had fully
                 implemented the NAPs and, in fact, sites estimated that it
                 may take from 2009 to 2015 to fully implement such policy.
                 Furthermore, many NNSA field sites were permitted to
                 follow a less thorough certification and accreditation process
                 that did not include all NIST or NNSA requirements. In
                 addition, our comparison of the NAPs to NIST guidance
                 found that while the NNSA certification and accreditation
                 policy generally incorporates NIST guidance, we identified
                 areas where it did not. Specifically, the NAPs do not address
                 certain NIST requirements, such as post-accreditation



Page 4                                                  Details of Finding
         monitoring of selected sec~lritycontrols and developing plan
         of action and milestones.

                Quality Assurance and Performance Monitoring

         The Office of the CIO and the Departmental elements
         reviewed did not always have an effective mechanism in
         place to ensure that documentation prepared and testing
         performed to s~lpportsystem accreditations met NIST
         requirements. Depa~lmentOrder- 205. I A, Dep~lrtttle~lt          of'
         E ~ ~ r r ~Cyhcr-
                     q y Secllrity M u ~ l c l g e ~ n r ~December
                                                           lt,     4 , 2006,
         establishes line management accountability through Senior
         Department management to ensure protection of information
         systems. While NNSA and the program offices generally
         took action to ensure C&As were performed, they did not
         have an effective process in place to evaluate the quality of
         the efforts. For example, NNSA did not have a process that
         monitored their field site C&A activities.

         Similarly, when we initiated our review, the Office of
         Science did not actively oversee site C&A activities.
         However, concurrent with our review, the Office of Science
         began its Site Assisted Visit initiative. Computer security
         specialists from the Office of Science and the Office of
         Independent Oversight, Office of Health. Safety, and
         Security conductedJoint visits to I2 of the Office of
         Science's I5 sites to identify cyber security we, k nesses,
         develop corrective action plans, and follow up to ensure
         corrective action was taken. We believe this initiative, i f
         fully implemented and deployed across the complex, should
         result in significant program improvements. The effort is
         currently limited to mostly Office of Science sites, and while
         two sites outside of the Office of Sc~encewere reviewed,
         there are no immediate plans to expand the initiative to other
         program elements.

         The Office of the CIO also had not regularly performed
         independent verification and validation (IV&V) activities
         essential to evaluating the adequacy of Cyber Security
         Program performance. While we learned that some IV&V
         work was performed during Fiscal Year (FY) 2005 on
         selected system certifications and accreditations, findings
         from these efforts were never remediated. Officials from the
         Office of the CIO explained that they informed responsible
         program officials of deficiencies identified, but those
         program officials had taken no other action to ensure that the
         findings were resolved. Although Office of the CIO officials


Page 5                                              Details 0.f Finding
                  indicated that no additional review work in that area had been
                  pel-formed, they also told us that they intended to perform a
                  review of a sample of certification and accreditation
                  packages during 2006. However, at the time of our review,
                  management informed us that i t was unable to complete the
                  planned reviews because of other pressing concerns.

                              Compressed Implementation Schedule

                  In some cases, officials told us that extremely compressed
                  timeframes imposed by the Department for performing
                  C&As prevented them from doing a thorough job. Since its
                  inception in 2002, FISMA required that the Department's
                  major systems and general support systems be certified and
                  accredited before being placed into operation. The
                  Department initially reported to OMB in its FY 2003 FISMA
                  report that about 83 percent of its systems were accredited.
                  However, our concurrent review at that time found that only
                  26 percent of the systems were properly certified and
                  accredited. To address this situation, and in preparation for
                  FY 2004 FISMA reporting, the Department set a deadline of
                  June 30,2004, to certify and accredit 90 percent of its
                  systems. This goal, according to the Department officials,
                  required program offices and field sites to work more quickly
                  than feasible, and one site official acknowledged that it
                  became a "paperwork process" rather than a thorough review
                  of the systems. In a few instances, ofl'icials acknowledged
                  that their C&A packages lacked some key components.
                  Despite a number of reviews noting problems, many of these
                  incomplete or inadequate efforts had not been updated or re-
                  performed, and sites continue to rely on them.

System Security   Without proper C&A of systems, the Department lacks
and Reporting     assurance that its systems and data are secure. In addition,
Assurance         certifying and accrediting officials may lack sufficient
                  information to make an informed decision regarding
                  authorizing systems for operation and to accept the residual
                  risk to agency operations. As noted in NIST 800-37, "it is
                  es.seiztiu1 that agency c?fficial.slzulle the r?zost coiiiplete,
                  accurute, and trustworthy iiqi)rnltitioiz possible oil the
                  .sec.uritv statu.~qftheir iiforrnatioi? sy.steins in order to nrrlke
                  tinzely, credible, risk-basecl dec>isioizsoil c~qhetherto authorize
                  operrrtion ofthose systen1.s." Inadequate C&A of systems
                  leaves valuable information technology resources potentially
                  vulnerable to cyber attacks from internal and external sources
                  and could result in data tampering, disruption of critical



Page 6                                                      Details of Finding
                  operations, and inappropriate disclosure of sensitive
                  information.

                  Also, without a consistently applied C&A process, the
                  Department has no assurance that it is correctly reporting its
                  FISMA submissions. For example, in FY 2006, the
                  Department reported to OMB that 99.8 percent of its systems
                  were certified and accredited. As noted in our report,
                  however, many of the efforts were of poor quality and did not
                  satisfy a number of protection goals. Additionally, our
                  review found that the process followed by several sites was
                  inconsistent and lacking in a number of critical areas.
                  Consequently, we believe that the number of systems
                  certified and accredited in accordance with Federal
                  regulations is significantly lower.


RECOMMENDATIONS   Consistent with recommendations made in our report on the
                  Department's Unclassified Cyber Security Program - 2006
                  (DOEIIG-0738, September 2006) and to ensure the
                  Department's information systems are properly certified and
                  accredited for operation, we recommend that the
                  Administrator, National Nuclear Security Administration, the
                  Under Secretary for Science, and the Under Secretary of
                  Energy, in conjunction with Office of the Chief Information
                  Officer:

                       I.   Ensure that program and site guidance includes all
                            certification and accreditation requirements set forth
                            by NIST and OMB;

                      2.    Evaluate the Office of Science's Site Assisted Visit
                            initiative for feasibility of expanding this or a
                            similar oversight process across the complex; and,

                      3.    Ensure that system accreditations and re-
                            accreditations are conducted in a timely manner to
                            properly secure the Department's information
                            system resources, to include correcting problems
                            with existing C&As that we identified.


MANAGEMENT        The Department concurred with the report's conclusions and
REACTION          recommendations. In particular, management indicated that
                  one of the priorities in Fiscal Year 2007 is to continue to
                  improve the Department's C&A process, bringing it to an
                  acceptable level. Comments submitted by the Department's

Page 7                                 Recommendations and comments
            CIO on behalf of his and other offices are included in their
            entirety in Appendix 3. In separate informal comments, the
            NNSA indicated however that its sites were not required to
            implement NIST requirements. NNSA noted that it had
            developed NNSA Policy Letters (known as NAPs) that it
            believed generally satisfied NIST requirements and that its
            sites were required to follow those policies.

            NNSA officials attributed the accreditation of systems
            without adequate or complete documentation to the lack of
            understanding, training and education of some senior agency
            officials. Additionally, NNSA requested more detail on the
            conditions cited in the report, specifically the findings
            relevant to security categorizations, residual risk, and
            improper delegation of accrediting authority.


 AUDITOR    Management's comments are responsive to our
 COMMENTS   recommendations. We do not, however, agree with
            arguments advanced by NNSA in its infornlal comments. In
            particular, we disagree with NNSA's assertion regarding the
            adequacy of its policy and its contention that it does not have
            to explicitly comply with NIST requirements. As we
            identified in our report, the NAPs do not include certain
            critical NIST requirements related to C&A. Office of
            Management and Budget implementing guidance for FISMA
            specifically requires that organizations comply with NIST
            guidance.

            Should an organization elect to develop and adopt its own
            cyber security guidance as NNSA has done - FISMA
                                     -



            requires that the organization affirnlatively demonstrate that
            all NIST requirements are incorporated in such locally
            developed guidance. Even if NNSA's argument that its
            internally developed procedures address all NIST
            requirements is accepted, problems would still likely exist
            because many of NNSA's sites have made little progress in
            implementing its cyber security policies. In one recent and
            particularly noteworthy example, we noted in our Special
            Ilzquiry olz Selected Colztrols over ClusscJied Ilzformatiolz at
            the Los Alumos Nutiolzal Lahoruton: (November 2006) that
            the Laboratory had made little progress in complying with
            NNSA's NAPs. In this instance, the Laboratory's lack of
            progress in this area adversely affected computer security and
            contributed to the unlawful diversion of classified
            information from one of its networks.



Page 8                          Recommendations and Comments
         Specific details of our findings were provided to both NNSA
         Headquarters and relevant site officials. In addition, details
         will be provided again in reports we are issuing separately to
         NNSA Headquarters. Due to the nature of the conditions,
         specific details on vulnerabilities and locations have been
         omitted from this report.




Page 9                      ~ecommendationsand Comments
Appendix 1


OBJECTIVE     To determine whether the Department had appropriately certified
              and accredited its systems.

SCOPE         The audit was performed between September 2005 and
              August 2006 at Departmental Headquarters in Washington,
              DC, and Gel-mantown. MD; NNSA Servicc Center and
              Sandia National Laboratory in Albuquerque, NM;
              Lawrence Berkeley Laboratory in Berkeley, CA; and Oak
              Ridge National Laboratory, the Oak Ridge Office, the Y- 12
              Nat~onalSecurity Complex, and the East Tennessee
              Technology Park in Oak Ridge, TN. ln addition, we
              inco~poratedfindings regarding the certification and
              accreditation process at Argonne National Laboratory and
              Chicago Office in Argonne, IL; Fermi National Accelerator
              Laboratory in Batavia, IL; Kansas City Plant in Kansas
              City, MO; Los Alamos National Laboratory in Los Alamos,
              NM; and the Nevada Test Site in Mercury, NV.

METHODOLOGY   To accomplish our evaluation objective, we:

                     Reviewed applicable laws and directives pertaining
                     to the certification and accreditation of information
                     technology resources, including the Federal
                     Information Security Management Act, Office of
                     Management and Budget Circular A- 130 (Appendix
                     III), DOE Order 205.1, and DOE CIO Guide
                     205.1-2;

                     Reviewed applicable standards and requirements
                     issued by NIST;

                     Reviewed the Department's overall certification and
                     accreditation guidance and practices throughout the
                     organization;

                     Held discussions with field site officials and
                     officials from various Departmental offices; and,

                     Reviewed reports by the Office of Inspector
                     General and the Government Accountability Office.

              We also evaluated the Department's implementation of the
              Govenz~tzetltPerfi~rnzanceand Results Act and determined
              that it had established performance measures for system




Page 10                         Objective, Scope, and Methodology
Appendix I (continued)

                    certification and accreditation. We did not extensively rely
                    on computer processed data to satisfy our audit objective.

                    The evaluation was conducted in accordance with generally
                    accepted Government auditing standards for performance
                    audits and included tests of internal controls and
                    compliance with laws and regulations to the extent
                    necessary to satisfy our objective. Accordingly, we
                    assessed internal controls regarding the certification and
                    accreditation of information systems. Because our review
                    was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the
                    time of our evaluation.

                    An exit conference was held with Department officials on
                    December 13,2006.




Page 11                               Objective, scope, and Methodology
Appendix 2

                              RELATED REPORTS


     Special Report on Management Challenges at the Department of Energy
     (DOEIIG-0748, December 2006). Cyber security is one of seven challenge areas
     facing the Department of Energy. Several Office of Inspector General (OIG)
     reports have highlighted the need for improvements in the Department's overall
     cyber security program. For example, during the annual FISMA review, the OIG
     found that, among other things, many certification and accreditations had not been
     performed or were inadequate and contingency planning had not been completed
     for certain critical systems.

     Special Inquiry Report to the Secretary: Selected Controls over ClusscJied
     Information at the Los Alan~osNational Laboratory (OAS-SR-07-0 1 , November
     2006). As a result of the report of the removal of classified information at Los
     Alamos National Laboratory (Laboratory), the Secretary requested that the Office
     of Inspector General conduct an investigation. The report noted that the security
     framework relating to the incident at the Laboratory was seriously flawed.
     Specifically, the review disclosed that (1) in a number of key areas, security
     policy was non-existent, applied inconsistently, or not followed; (2) critical
     security internal controls and safeguards were not functioning as intended; and (3)
     monitoring by both Laboratory and Federal officials was inadequate.

     The Departmerzt's UtzclasscJied Cyber Security Program 2006 (DOEIIG-0738,
                                                              -



     September 2006). The report noted that weaknesses continue to exist that expose
     its critical systems to an increased risk of compromise. For example, many
     system C&As had not been performed or were inadequate in that they lacked
     essential elements such as annual self-assessments and independent testing of
     security controls. Specifically, at four sites, seven systems were identified, some
     of which were core operational systems, for which the C&A process had not been
     completed. At 12 sites, while organizations provided documentation supporting
     completion of the C&A process, the report noted that many specific, detailed
     activities required by NIST guidance were not performed.

     The Department's UnclusscJied Cyber Security Progratn - 2005 (DOEIIG-0700,
     September 2005). The report noted that certification and accreditation of systems
     and a comprehensive inventory of major systems remain incomplete. The review
     identified various problems with the certification and accreditation packages
     including missing Plans of Action and Milestones, risk assessments, security
     plans, andlor a lack of accreditation documentation.

     Weaktzesses Persist at Federal Agencies Despite Progress Made in Implementing
     Related Statutory Requirements (GAO-05-552, July 2005). The report noted
     pervasive weaknesses it1 the major agencies' information security policies and
     practices threaten the integrity, confidentiality, and availability of Federal



Page 12                                                           Prior Audit Reports
Appendix 2 (continued)

     infi>rniation and information systems. Access controls were not effectively
     implemented; software change controls were not always in place; segregation of
     duties was not consistently implemented; continuity of operations planning was
     often inadequate; and security programs were not fully implemented at the
     agencies. These weaknesses evisted primarily because agencies have not yet fi~lly
     implemented strong information security management programs. These
     weakncsscs piit Federal operations and assets at risk of fraud, misuse, and
     destruction. [n addition. they placed financial data at risk of unauthorized
     modification or destruction, sensitive information at risk of inappropriate
     disclosure, and critical operations at risk of disruption.

     ilgencies breed lo Irnl,lemenf ('onsislenl Processe.r in Azrrhorizing LYy,slen7.s,for
     Ol,crtrfion (GAO-04-376, June 2003). The report noted that NIST had provided
     guidance fbr the certification and accreditation of Federal information systems.
     'I'he guidance includes new guidelines just issued by NIST, which emphasi~ea
     model of continuous monitoring, as well as compliance with FISMA-required
     standards for minimum-security controls. Many agencies report that they have
     begun to use the new guidance in their certification and accreditation processes.
     However, the review of documentation for the certification and accreditation of
     32 selected systems showed that these criteria were not always met. Further,
     some agencies did not have routine quality review processes to determine whether
     such criteria are met.




Page 13                                                           Prior Audit Reports
Appendix 3



                                          Department of Energy
                                              Washlngton, DC 2 0 5 8 5


                                             November 2 1,2006
             MEMORANDUM FOR RICKEY R. HASS
                            ASSISTANT INSPECTOR GENERAL FOR
                            FINANCIAL, TECHNICAL, AND CORPORATE
                            AUDITS

             FROM:                     THOMAS N. PYKE. JR.          -
             SUBJECT:                  Comments on the Draft Report on "The
                                       Department's Certification and Accreditation of
                                       Information Systems," IG-32 (AOSTG045)

             Thank you for the opportunity to review and comment on the Draft Report on The
             Dej~artmetzt's Certzjication and Accreditation of Information Systems, dated
             September 25, 2006. The Office of the Chief Information Officer (OCIO)
             concurs with the report's conclusions and recommendations.

             As part of the ongoing revitalization of the Department's cyber security program,
             we are taking steps to ensure that DOE policy clearly requires that the cyber
             security guidance issued by NIST as well as relevant OMB directives are to be
             followed within the Department. Implementation of this requirement will be
             achieved in significant part by incorporating key NIST guidance in our OCIO
             guidance and in updated Program Cyber Security Plans to be issued by the Under
             Secretaries and others.

             We are also planning an appropriate cyber security compliance review program
             and a DOE-wide outreach effort that builds on the successes of the Office of
             Science's Site Assistance Visit initiative. In carrying out this year's cyber
             security efforts, we will be giving special attention to ensuring that the detailed
             findings summarized in this Draft Report are thoroughly addressed. One of our
             priorities in FY 2007 is to continue to improve DOE'S certification and
             accreditation processes, bringing these processes up to an acceptable level.

             OCIO looks forward to working with the Under Secretaries to implement the
             recommendations in this report, and we will keep your office advised of our
             progress. If you have any questions or need additional information about this
             response, please give me a call, at (202) 586-0166, or contact Associate CIO for
             Cyber Security Bill Hunteman, at (202)-586-4775.




Page 14                                                           Management Corr~ments
                                                             IG Report No. DOEIIG-0752

                        CUSTOMER RESPONSE FORM

The Officc of Inspector General has a continuing interest in improving the usefi~lnessof
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Pleasc include answers to the following questions i f they are applicable to you:

1 . What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report'?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overal l message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (302) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-I)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Ofl'ice o f Inspector General wants to make the distribution of its reports as customer friendly
 and cost el'fcctive as possible. Therefore, this report wilI be available electronically through the
                                  Inte~netat the folIowing address:

               U.S. Department of Energy Office of Inspector General Home Page



  Your comments would be appreciated and can be provided on the Customer Response Form.
